No

IN THE
SUPREME COURT OF THE UNITED STATES

— PETITIONER
(Your Name)
vs.

FILED
JAN 1 9 2021
OFFICE OF THE CLERK
.SUPREME COURT I is

— RESPONDENT(S)
ON PETITION FOR A WRIT OF CERTIORARI TO

(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

(Your Name)

(Address)

(City, State, Zip Code)

(Phone Number)

Question Presented

Was the petitioner deprived of a fair trial when the

only

Government witness to incriminate him lied to the jury that the defendant
appeared before the grand jury

and made an incriminating statement upon

exiting , when the defendant was not called before the Grand jury, and the
Prosecutor lied to the Judge that the defendant did appear in order to
avoid defense* s califor a mistrial?

List of Parties

United states of America
( Alll parties shown in Caption

(INSTITUTIONAL AND STATUTORY PROVISIONS
INVOKED
Page

Article 1,

§ 9, C12., U.S. Constitution

21

Fifth Amendment, right no to incriminate oneself

5.6
5

Fifth Amendment, Due Process Clause

20,21

18 U.S.C. 922 (d) (1)

1

18.U.S.C. 922(d) (1)

1

18 U.S.C. 1958

1

28U.S.C. 1254(1)
28 U.S.C. 2241

1
1

28 U.S.C. 2255

1

Federal rules of Criminal Procedures, Rule 6

6

TABLE OF AUTHORITIES CITED

Alorta

Berger V. Maryland.
Brady

Page
20

V.Texas, 355 US 28(1957)
295 US 78,88 (1935)

14

V. Maryland,373 US 83,87 (1963)

8

California V. Trombetta, 467 US 479,485 (1984)

11

Fay ’iV Noia, 372 US 391,402 (1963)

19,22

Giglo VV. United States, 405 US 103 112 (1972)

5,7,8,9,

Portuodo V. Agard, 529 SU 61,77 (2000)

21

Pyle V. Kansas, 317 US 213 (1957)

20

Weatherford V. Bursey, 429 US 545 559

6

Rodigeu z

V. Doral Mortgage Corp.,57F.Ed 1168 1178 (1st cir)
(1995)

United States

'V.

Cosby, 601 F.2d

754 ,758 (5th cir. 1979)

14
8

United states
IV Dotson, 570 F.3d 1076 (8th cir). cert,
denied, 558 US 1058, 130 S.ct 764, 175 L.Ed 2d 532 (2009)

1

United States
2013)

1

V. Dotson, 2013 US Dist. Lexis 55519 (E.D.MO.

United States V. Heffington, 682 F.2d 1075, 1080 (5th
and 11th cir. 1982).

8

INDEX TO APPENDICES

Appendix 1

Page
1

Appendix 1

2

Appendix 3a

11,12,13, i3'

Appendix 4

4,6

Appendix 5

14

Appendix 6

13

Appendix 7

9

Appendix

45“

Appendix 9

18

/

IN THE SUPREME COURT OF THE UNITED STATES
WASHINGTON D.C.

GLEN THOMAS DOTSON
PETITIONER

)
)
)
)
)
)
)
)

V
UNITED STATES OF AMERICA
RESPONDENT

BEFORE CHIEF JUSTICE
JOHN ROBERTS

PETITION FOR A WRIT OF CERTIORI
JURISDICTION
JURISDICTION IS INVOKED PURSUANT TO 28 U.S.C. 1254 (1)
BACKGROUND AND OVERVIEW
The Petitioner, Hereinafter Dotson, was charged with conspiring with
one Virgil Lee Jackson, to commit murder, and with providing a weapon to a felon
under 18 U.S.C. 1958, and 18 U.S.C. 922 (d) (1) Dotson was found guilty by
,
a'-jury on May 12, 2008. LAPP- 0
Dotson Appealed the case to the Eighth Circuit Court of Appeals; the
court affirmed and Dotson filed for Certiorari; Dotson v. United States, 570
F3d 1076 (8th cir.) Cert. Denied 558.u.S. 1058, 130 s. ct. 764, 175 L.EDI'd 532
(2009). CapP a.)
Subsequently, Dotson filed a petition for Habeas relief persuant to
28 U.S.C. 2255. That petition was heard by Distrct court Judge Henry Edward
Autrey. The Judge denied the petition and he denied a Certificate of
Appealability,. 2013 U.S. Dist. Lexis 55519 (E.D. MO. 2013). Dotson Filed for
a rehearing Enbanc and a rehearing by the panel; those motions, under 4:10 cv-00888- HEA, were denied. Dotson filed a successive 2255, it was denied as
were a 28 U.S.C. 2241 Habeas he filed in Arkansas while he was con:
^RECEIVED
and motion for a Certificate of Appealability with the Eighth Circuit
motions he filed after the 2255 were denied without comment by the courts.
OFFICE OF THE CLERK
SUPREME COU RT, U.S.

1

Dotson is serving two consecutive sentences for an aggregate

of 240

months for the two counts for which the jury founnd him guilty.
A frantic cry of actual innocence that is supported by lack of evidence
in the Record may seem to be unrealistic in a legal atmosphere in which the
Government seldom loses a case. In this particular case, however, there was no
physical evidence against Dotson. Their recordings of telephone calls to
Lee Jackson made by Aaron Smith who cooperated with the Government, but Dotson's
nqme did not come up in those conversations. No witness other than Stump implicated
Dotson in those crimes, and the record reveals Stump's lie after lie to implicate
Dotson; they are documented in the record. The Government introduced many
photographs, fundamentally, they were useless, However, they added to the illusion
that the Government had overwhelming evidence of Dotson guilt. Dotson does not
appear in one of those photos and not one of them casts guilt on Dotson. In
the absence of real, physical evidence, the Prosecutor presented evidence and
testimony that made a strong case against'Virgil Lee Jackson ,but which did
not incriminate Dotson.
Prosecutor Hoag paraded twenty witness with titles that may have
impressive titles. The Prosecutor brought seven Federal Agents before the court
and jury; none of whom were able to incriminate Dotson. Six current or former
policeman testified for the Government, not one of them produced real evidence
against Dotson. Two Sheriff's deputies, one of them a Dective, were Government
witness; they did not produce incriminating evidence against Dotson. Five state
or county employees tooK the stand for the Government, but did not connect Dotson
with any crime. It was a ploy by the Government; when you don't

have evidence
divert, and that, the Government did. The Prosecutor made a case against 'Virgil
Lee Jackson and it rubbed off on Dotson.
There was a Bill before the Missouri Legislature to lossen restrictions in
in the Law to prevent certain felons from obtaining a license to be a General
Bail Bondsman; they were, under then current law, only permitted to work as
Bail Bond ragents under the umbella of a licensed General Bail Bondsman. The
Bill was opposed by a vocal, formal State Representative, Gerald Cox;.who
was himself, the propietor of a Bail Bond Company Cox operated his business in the
same area of Missouri., as Jack Allison, who held the general licenser under which
Virgil Lee Jackson worked and under which Jackson could hire lower echelon Bail
Bonds Men and Bounty Hunters (to catch Bond violators!
2

Dotson was a Part-time "Bounty Hunter" who worked for Virgil Lee
Jackson. He was required to " recover" people on Bond who had violated the ,
conditions of their release on Bond. Dotson had a day job moving house trailers.
Dotson did not know Gregory Stump prior to Stump seeking work. Stump
was the Government's all-important witness; absent Stump, the Government had
no case. Stump was working for a garage door company when he encountered
general BailBondsman Jack Allison. The two men conversed and Allison gave Stump
the telephone number of Virgil Lee Jackson.
Stump phoned Jackson who then gave him the telephone number of .
Dotson* The petitioner, Dotson, returned Stump's call. There after, Stump
accompanied Dotson on about ten bounty missions; apparently, only one of those
resulted in a"recovery". Stump did not testify to having contact with Dotson
beyond the ten occasions when he accompanied Dotson to make a "Recovery" i
Never the less, Stump testified that at some point, Dotson telephoned
to ask Stump if he had a throw-away gun; one that was untraceable. It was
for Dotson's son at home to have. At first he said he didnt have one, but then
he recalled an old
inoperable pistol he owned. Stump said he agreed to sell
that gun to Dotson for One Hundred dollars.
According to Stump, Dotson and he met at a volleyball court , the
following day. Stump and Dotson drove their vechiles beside one another; and
Stump testif ied that he passed the gun, wrapped in a towel, to Dotson. Dotson
passed a one hundred dollar bill to him.
On cross examination, Stump denied that he lied to Agent Heitzler,
however,.he had told that agent he had purchased the gun from a deceased blind
man. He denied that he told that to the Agent. Defense counsel confronted him
with the Agents report.
Under redirect examination, Stump admitted to lying when he told the
agent he had procured the gun from a deceased, blind man, Mark Listner. The
prosecutor asked, "why did you lie?" Stump answered, " I was trying to protect
my friend Pat Dannegger."

3

Stump's friend and former employer, Patrick Dannegger lied as to where
he had gotten the gun; but in his file he wrote that the gun was from "uncle
Bill". The truth was that he purchased the gun from one Gus Loness who brokered
the sale between Loness and Dannegger. Dannegger testified that he lied about the
source of the gun to protect a Police man.
Stump testified that after he sold the gun to Dotson, Dotson told him
he had gotten the gun repaired, at a sho^ located in New Melle, Mo when ATF
agent interviewed Jack and Jill MCcelLan,
owners of that gun shop, Jill MCcellan
picked two photos from a photo spread and said the indiviuals resembled people
who had been in the shop. Jack Mccellan said he did not recognize the gun as one
he had worked on. Mr. Mccellan searched his firearm repair log book but there
was no record of the gun Stump claimed he sold Dotson and which Dotson said he
had repaired at the New Melle gun shop.
When Stump purchased the gun from Dannegger, Stump assured Dannegger
he wouldsell it back to Dannegger if ever he decided to "get rid of it". Stump
lied again, he testified that he sold it to Stump that was a lie to but, never
the less, he did not keep his word to his friend Patrick Dannegger.
In a declaration dated 11-06-09, Virgil Lee Jackson denied that Dotson
provided him with a firearm, " Glen did not give, transfer, sell or loan me a
firearm at any time." CAPP. $)>
The most serious, the most flagrant lie Stump told is ahead as the topic
for argument.

Initially, Stump was the focal point of the investigation; he diverted
attention to Dotson four days later by reporting that Dotson called him in search
of a throw- away gun.
ARGUMENT
Dotson was not summoned to appear before the Grand Jury. He was not
called and he did not appear before it. (APP.4). Dotson does not know if . .
A.U.S.A. Hoag presented the case to the Grand Jury or if some other Government
Attorney sought the indictment against Dotson, however, it is illogical that
a government Attorney taking a case to trial would not know who did and
4

who did not appear before the Grand Jury, the Government attorney presents
the evidence to them and it is he who will be summoned and, under Rule 6, of the
Federal rules of Crimminal Procedures, he is the only Attorney allowed in the
Grand Jury Proceedings.
Furthermore, the knowledge of all, of the Prosecutors revelant to a
particular case is imputed to the case prosecutor. Giglio V. united States, 405
U.S. 150, 154, 92 s.ct.763,31 Led 2d 104(1972).
The following colliquy took place between prosecutor Hoag and his witness
Gregory Stump:
Q. Okay, now did you ever have occassion then to run into
Mr. Dotson in the court house?
A. Yesc
Q.When was that approximately?
A.That was when I had to testify in front of the Grand jyry
Q. All right, and when you saw him, what if anything did the
defendant say to you,
A. the first time he loaked at me, he asked me what I was doing
here.
Q. Okay.
A. And then the second time was when he come out from the grand
jury and he looked at me and he said, I didn't tell them a
thing.
Q. All right.,( Tr Iv, 125:17 - Tr 126:6)
Mr. Jenkins, defense counsel quickly moved for a mistrial. Jenkins
complained that Stump's testimony was a "direct reference to my client's
failure to testify in this in the case before the Grand jury. It's the first
time I've heard it." (Tr.IV ,126*11-14)*
It seems obvious that defense counsel was unaware of the truth; Dotson
had not been in the courthouse as Stump testified’ he was. Dotson did not enter
the Grand jury room and, therefore, obviously did not tell Stump, "I didn't
tell them a thing."
Mr. Hoag, the prosecutor defended Stump's Testimony.

5

Mr. Hoag; Its not a statement that is made in custodial. It's not an
officer testifying about it. It is a witness that he attemped to intimidate, and
and I think it's consciousness of guilt, and it's admissable for that. ( Tn. IV126
22-\

Counsel Jenkins, unware that Dotson had not been before tha grand jury,
pressed his argument that it was a statement that it was a direct comment about
Dotson pleading the "fifth before the Grand iury '. ( Tr IV , 126; 22-TrIV 127
: 1 ). ( APP 4).

The defense counsel did not know who the witness were
who appeared /.
before the Grand jury; the government is not obligated to provide the defense
with a list of such witnesses. Weatherford V. Bursey, 429 U.S.545, 559, 97 S.CT
837, 51 L.Ed 3d 30 (1977). However, Prosecutor Hoag, and officier of the court
told the Judge:
Mr. Hoag: No, it's not. " I didn't them a thing" is consciousness of
guilt. " I didn't testify" . that is absolutely true, I would say that, but I
know he did testify. (Tr.IV 127:12-(5).(APR 4)
The Prosecutor. Mr. Hoag, argued to Judge Aurtrey that the false
statement, wrongfully attributed to Dotson, "I didn't tell them a thing", " is
consciousness of guilt". (Tr. IV 127: 13-15); but see (APP. 4)
It is incredible that an attorney for the United States would
Intentionally, and knowingly lie in court to a Federal District judge; Not once
but twice. Prosecutor Hoag lied to Autrey when he argued that Dotson attempted
to intimadate Stump. That cannot be called anything except what it is- A Lie
created out of whole cloth. When the Government Attorney, Mr. Hoag told Judge
Autrey "...But I know that He did testify ", the Prosector lied with full
knowledge that Dotson did not appear before the Grand jury in the case.
( Tr. IV 126:18- 127:15),. (App.4)
The Government Attorney decides who will be summoned to testify before
the Grand jury. The Government Attorney is the only Attorney allowed to be present
when evidence is presented and witness brought before the Grand jury. It is the
Government Attorney who developes the case upon which the Grand jury under the

6

Federal rules of criminal procedure. The Government Attorney must know who and
what was said before the Grand jury in order to organize his case, even if he did
not preside over the grand jury proceeding, the information relevant to the case
is expected to be communicated to every Lawyer who deals with it. Giglio
V.
United States,405 U.S.150,154,92 . S ct.763, Led 2d 104 (1972).
„

The prosecutor staunchly defended the testimony of his key-witness.

Gregory Stump. During His support of Stump's testimony, the prosecutor injected
his own false statement, "...But I know he did testify", there was no basis for
that statement in the testimony, or in defense counsel's objection, nor in the
record itself. (TR.IV 126:7- Tr IV,127: 18. The Government Attorney had no ?.
Defensible reason to say he knew that Dotson did testify before the Grand
jury. There was no reason for him to argue that to the Judge. The Prosecutor
betrayed himself with that statement; perhaps it was in reality a freudian
-slip. Whatever it was, it was a lie, he knew that it was a lie. It reeks of
collision between the Prosecutor and his witness Gregory Stump on whom a
conviction relied. The Prosecutor knew Stump lied and he knew that he himself
lied.
Dotson had NO opportunity to tell Counsel Jenkins that he did not
testify before the Grand jury. When Stump completed making his false accusation^
Attorney Jenkins was immediately on his feet requesting a side bar; after-,,which
he moved for a -mistrial. (Tr, TV126: 11-17). Subsequently, the Judge denied
a mistrial (Tr. Ivl27: 19-20).
Prosecutor Hoag, argued against a mistrial:

Mr. Hoag: No it's not,it's not." I didn't tell them a thing" is

Ki™ &that
•
truthful

Dotson agrees with Prosecutor Hoag that the statement, in an actual
situation could likely be admissable as consciousness of guilt. In this

case, Stumps testimony, which was totally fictitious, however, the jury never knew
that, and as the Prosecutor advised the JUdge, that the statement was consciousness
of guilt.

7

Once Judge Autrey denied the defense motion

for a mistrial, the jury

was left to believe that the encounter with Dotson at this courthouse did, infact
take place, the jury would, as the Government Attorney argued, view the false
statement as evidence of guilt.

" As long ago as Mooney V holohan, 294 U.S. 103, 112, 79 L.ed 791, 794
55s. ct. 340, 98 ALR 406 (1935), This court made clear that deliberate deception
of a court and Judges by presentation of known false evidense is incompatible with
"Rudimentary demands of jutice." This was reaffirmed in Pyle V Kansas 317 U.S.
213,87 L.ed 214, 63 S,ct 177 (1972). In Napue V Illnois, 360 U.S.264,3Led 2d 1173,
(1959) . We said "[t]he same result obtains when the state, although not soliciting
false evidence, allows it ot go uncorrected when it appears,"id,at 1269,3 L.Ed 2d at
1221. Thereafter Brady V Maryland, 373 U.S.

at 87,10 L.Ed at218,83 S.ctll94 (1963).

Held that suppression of material evidence justifes a new trial " Irrespective
of the good faith or bad faith of the Prosection".

Giglio V United States, 405 U.S.

150, 154, 92 S.ct. 763, 31 L.Ed 104 (1972).

Prosecutor Hoag may deny that he knew Dotson did not testify before the
Grand jury However:,
"The role of a prosecutor is to direct the Grand jury in its investigation
but to avoid taking control of such inquiry.
601

United States

V Cosby,

F.2d 754,758 (5th cir 1979)." United rUV Heffington,682 F.2d 1075,

1080 (5th and 11th cir 1982).

The Supreme court has visited the issue of what the Prosecutor is
responsible for being aware of.

" The Prosecutor's office is an entity, and such it is the spokesman
for the Government. A promise made by one Attorney must be attributed
8

for these purposes, to the Government. See restatement (second) of
Agency § 272. See also American Bar Association project on standards
for criminal justice, discovery procedure before trial § 2.1 (d). To
the extent this places a burden on the larger Prosecution offices,
procedures and regulations canbe established to carry that burden and
to insure communition of all revelant information of each case to every
Lawyer who deals with it." Giglo

V united States, 405 US at 154.

At this beginning of this case, the focus o the investigation was on
Grigory Stump. (Tr. IV 67: 6 -8) . It was only when Stump was asked if he sold
the gun to Jackson tha.t suddenly he remembered that he sold to Dotson. ( Tr.
ffPP-7'
IV 67: 9-10) . Until that moment, it probably would have been Stump’s name on the
indictment, Not Dotson's name- Stump knew Jackson was a felon. ( Tr. IV 145: 23-24),

Stump told agent Heitzler that he, Stump, purchased the gun from a
deceased blind man, Mark Listner. ( Tr. IV 141:17

Tr. Iv 142: 11). Stump admitted

that he was not true.

On redirect, Prosecutor Hoag aksed Stump why he had lied to the agent
when he said he had gotten the gunfrom the blind man. Mark Listner. Stump admitted
he lied but he attemped to mitigate that lie by saying: " I was trying to protect
my friend Pat dannegger." Tr IV, 159: 24 - Tr

TV, 160:9).

Stump was asked, " Did you say anything

at that time about Mr. Dotson

calling and saying that this gun was.for his son?) Stump replied that he had, but
counsel called Stump's attention to the Agent's report that did not agree with
him. Mr. Hoag intervened to rescue Stump by offering to stipulate that it was hat

9

written in the Agent's report. Another Stump lie, again Stump was defended by
Prosecutor Hoag. (Tr. IV 147: 1- 21). Stump testified

that Dotson telephoned Stump

on his cellphone at about 10:00 pm at night on a friday night. Stump testified
that, " He asked me if I had an untracable gun, a throw-away. He said he was wanting
to put something together for his boy at the house." (Tr. TV 115: 5-23).

Gregory Stump, under cross examination, testified that the gun did not
work.

Q.

Twice when Mr. Hoag was asking you questions about this weapon,
Exhibit 1, you stated it didn't work; Correct?

A. Correct, it did not work when I had it. (Tr.
IV 131: 12- 14).

Stump stated that the trigger assembly did not appear to be the the one
he recalled being on the gun when he sold it. ( ,TR. IV 124: 125-4).

Prosecutor Hoag asked if Dotosn had told him where he had gotten the gun
fixed. Stump answered:
A. He said a place in New Melle. He said the guy acted kind of funny
about it. About why he wanted to have an old gun gun fixed like
that, that it wasn't worth the price to have it fixed—
Q. Okay. (Tr. IV 125: 6-10)..

Agent Heitzler visited " The gun shop"

located in New Melle Mo., where

he interviewed Mr. James "Jack" L. McClelland, the owner, Agent Heitzler asked
"if JM remembered someone coming into buisness in October of 2005 and having JM
look at or work on the revolver shown to him, JM replied that he did not have any
10

recollection of the revolver.
Jill McClelland the wife and "JM" were shown a "photographic”
"line-up of six (6) white male subjects, which included a piture of Glen Thomas
Dotson."

JM stated that nc one lookejd, femiliar to him.

Jill McClelland picked

picture. #4, the picture of Gian Dotson and picture $1, a picture of Jack Latimer
(an anonymous white male subject not affiliated in any way to this case), as persons
that mav have been in the shop at one time.

Jill McClelland was not positive on

those identifications, just that the two looked familiar.

At that time, Jill McClelland produced "the gun shops" firearm repair
log book, which would include firearms worked on by JM and "the gun shop",

A check

of September, October and November 2005 turned up negative for the ’H&R .38 S&W
caliber, 5-shot revolver (ATF item # 00004).

That visit to "the gun shop" established once again that Gregory Stump
did not testify truthfully. (APP. 3)

Once again prosecutor Hoag allowed Stump

to testify without correcting him although Mr. Hoag possessed Agent Heitzler's
report of 03-2 8-06, included here with as appendix 3.

"The most rudimentary of the access-to-evidence cases impose upon the
prosecution a constitutional obligation to report to the defendant and to the
trial court whenever government witnesses lie under oath. Napue V. Illinois, 360
US 264, 269-272, 36 L. Ed 2d 1217, 79 S. ct. 1173 (1959).
294 US 103, 79 L.Ed 791, 55 S. ct. 340 (1935).
485, 104 S.ct 2528, 81 L.Ed 2d 413 (1984).

11

See also Mooney V. Holohan,

California V. Trombetta, 467 US479

Mark Hale testified that he owns H&H Outfitters, a gun shop located in
Warrenton, Mo. (TR‘ V, 73:6-9).

Mark Hale did not repair the gun and he did not

sell ammunition for the gun to Dotson. (TR V, 75:25 - TR V, 76:5)

David P. Brockfeld owns "The Brockfeld Gunshop" located in Truesdale,

Mo.

"The purpose of the interview was to find out if Mr. Brockfeld ever observed

the firearm of had worked on the firearm for anyone. ft

tf

Brockfeld stated

that he

is a .45 caliber hand gun expert 'gunsmith' and' 'doesn't work cn those old
revolvers'. (APP 3AP.2)

Stephen Henderson, owner of "Troy Loan and Pawn Shop" was interviewed
by Agent Heitzler on March 15, 2006.
Mo.

Troy Loan and Pawn Shop is located in Troy,

Mr. Henderson stated that he is not a "gunsmith" and does not work on firearms.

Mr. Henderson gave Agent Heitzler consent to check his computer records; "The check
proved negative." (APP. 3AP. 3).

Agent Heitzler was accompanied by Detective Gary

Drury of the St. Charles, Mo. , Police Department.

Detective Drury filed Ms own.report with his department.

Dotson's

ex-girlfriend, Heather Walker, stated that Dotson had some one at the Troy Pawn
shop "alter the gun."

Owner Stephen Henderson said he is not a gunsmith, but an

accountant. (APP. 3B).

Heather Walker testified.-.

She told the jury she dated Dotson:

Q. How Long did that last?
A. Not quite a year, maybe eight, nine months.
Q. And sometime in 2003 it was over?
A. Yes.
12

Q. Okay, so in that period of time, did you ever go with Glen to
repair a weapon, a gun?
A. I went with him when he went to have a gun altered in Troy,
was — he wanted to have a pin taken out of it.
means.

But yes, it was in Troy on Main Street.

It

I don’t know what that
There was a gunsmith

that he knew in this pawnshop. (TR V,' 57:13H22), (APP 3A, P.3, P.4);
(APP. 3B)

Contrived?

Heather Walker testified a second time, ©n cross examination

that she accompanied Dotson to the Troy Loan and Pawnshop during the time they
dated.

Between 2002 - 2003. (TR V 59:12-19).

Dotson points out that the govern­

ment's key-witness, Gregory Stump, testified that he was contacted by Dotson in
2005, and Dotson asked Stump if he had an untraceable, throw away gun.

Stump still

owned the gun on October 22, 2005. (TRIV, 114:16 - 08); (TR IV,115:17 - TR IV ^
116:11). (RPP< <*).

Heather Walker added another tidbit to her testimony: "It was
wanted to have a pin taken out of it.

— he

I don't know what that means." (TR V, 57:20-21)

Discussion of the two pins that secure the trigger assembly of ATF Item # 00004,
the gun, arose during an interview of Mr. Jack McClelland
£
New Mellw, Mo. (APP. 3A, P.4)

owner of "The Gun Shop",

Prosecutor HM°g brought his own itegrity into question when he told the
Judge, untruthfully, "...but I know he did testify, ante,, and ( Tr.IV 127:

15).

The testimony of Heather Walker is sugpect , ante, but in a letter to Dotson dated
July 28 2006, His then attorney advised him as follows:

13

"Dean Hoag informed me that he had additional taped conversations that
put the gun in your hands but I'm not buying into anything as he told me that
he would have [to] produce this to me and it is not forthcoming. Obviously they
are trying to sweat you out thinking that you will turn against Lee, I told them
that if they had such incriminating statements is: from a tellephone conversation
that I believe that they would have presented those to me for that purpose from
the get go. Since they did not produce such transcripts I do not put any faith
in their statements." (APP. 5 )

tme****11
The forgoing adds credence to the cummulative evidence
on the part of Government Attorney Hoag.

" The United States Attorney is the representative not of an ordinary
Party to a controversy, but of a sovereignty whose obligation to govern impartially
is as ^compelling-as its obligation to govern at all; and whose interest, there
force,in a criminal prosecution is not that it shall win a case, but that justice
shall be done." Berger V. united States ,295 US 78, 88, 55 S. ct 629, 79 L. Ed
1314 (1935).

The first circuit has expressed it well.

" After all, a trial is a search for the truth, not merely a battle of
wits between jousting Attorneys." Rodigeuez

<V Doral Mortage CoRp. .

57 F.3d 1168, 1178 ( 1st Cir. 1995).

Gregory Stump was the key-witness for the Government in this case.
Intially, it was he who was suspected of providing the .38 caliber revolver T&R,
to Virgil Lee Jackson. ( TR. VI 67: 6-7 ). After the second interview of Stump
on 3-16-06, Stump diverted attention from himself to Dotson. The Government had
no case without Stump.
14

Stump lied and the Prosecutor took part in his Biggest lie; when Stump
testified that he saw Dotson in the Courthouse after after appearing before Grand
jury. Stump said Dotson told him," I didn't tell them a thing," (TR. IV, 126:
3 -5 ). The prosecutor participated in that lie by arguing to the Judge that the
statement was " consciousness of guilt," Dotson did not appear before the Grand
jury and he did not testify before it. (APP.8).

The prosecutor did not want a mistrial and he wanted the statement left
in because it created consciousness of guilt. The Prosector realized the impact
the testimony might have on the jury; Stump was only evidence against Dotson.

Prosecutor Hoag told the jury:

"...Folks
You ve got

you've got more than enough evidence to convict him.
more than enough evidence just based on Stump's

testimony alone and the phone records that corroborate it, you've
you've got more." (TR. VI 71: 1-4 ).

The Government never recorded any phone calls to or from Dotson. They
also did not introduce any verified phone bills although testimony was allowed
in as though the phone records had been admitted as Business records. Be that
as it may. Dotson's voice was not recorded in any phone conversation(s).

' In the absence of physical evidence, the Prosecutor stacked his case
case with witness, none of whom, other than Stump gave incriminating evidence®
Many of those witnesses seemed to have put on the stand simply because of
their job title.

15

There were four (4), ATF Agents: Theodore Heitzler, (TR. Ill 3); Wade
Beach, (TR.II 74); Jeff Eveld, (TR.IV, 67); Micheal Romos, (TR.IV, 75).

Three (3) FBI Agents took the stand: Brain Hoffman, (TR.IV, 99);
r■

Alan Leah, ( TR.IV,92 ).;Brian Ritter, (TR. II, 80).

Two Sheriff's deputies tock'the stand; Shannon Bowmen, Dective,
Lincoln county; Brian Johnson, Deputy Linclon county.
Two (2) witness on antique guns; Michael Fagras, (TR.II, 46); Richard
Littlefield , (TR. II 40).

Fagras was D6tson's;:former Attorney, and a former

policeman.

Five (5) witness who work for Government entities within Missouri ;
Jennifer Crum, former Missouri investigator ; ( TR.II, 28 ); Gaylene Lauer,
secretary to the criminal dividsion Judges, (TR.II,140); Tabatha Madding,
supervisor of the criminal dividsion, St. Charles courts, (TR.II 136); Keith
Morgan, bonding and records supervissor
(TR, II, 132); Kathryn Turner,

Deptment of Justice St. Louis county

State of Missouri Insurance Department, (TR.

115).

The plan seemed to be to incriminate VIEgil Lee Jackson, and to
sully Dotson by his close relationship with him.

Q. Okay, so how—let me ask you this. The defendant in this.
case, Mr. Dotson, you know him?
A. Oh , yes, sir.
Q. How do you know him ?
A. He was Le©4s right-hand guy, he did all. of Lee^s picks-ups.

16

He was——I mean* He was very tight with Lee. I did a couple of
of pick-ups with Glen. He was just always around at the office
or what have you. (TR.III, 67:3-j|0).

The foregoing is from testimony of Aaron Smith, former policeman,
Bailbondman, ( First Florida than Missouri), and was in the flooring business
for six months before he worked mth the police, undercover, in this case.
(TR.III, 63: 1-25)*

Q. How would you describe your preception of his relationship
A. Every time I saw Lee-,. he was with him. I meanat any association
meeting, if Lee was there, he was there.
Q. Okay. So when you were with Lee or When you saw Lee, fenerally
he was there?
A. He was ther. (TR. 11,104: 9-15).

Agent Heitzler was cross examined by counsel Jenkins.

Q. Now as a part of your investigation when you make up you Ops
plan, we have heard here in court and I assume we are going",
to hear more of it that my client is a long-time associate
or my client is the Bitch or my client is whatever of Virgil
Lee Jackson, you had his name.
A. Yes sir. (TR, III, 32 : 8 -1$).

Q.

And who was Lee Jackson#

A.

Lee Jackson was a Bondsman and a very close friend of Glen's.

Q. That's my next question . how close were they?
A.

Extermely close. They were together as often as possible.
Glen worked with him, did a lot of Hunting people down for him.
They were together a lot. He pretty much idolized him. (TR.V
17

52: -TR. V 53: 1 ). testimony of Heather Walker.

In a declaration made by Viril Lee Jackson, 11-6-09, Jackson:
" When Aaron Smith asked about Glen, I told him that Glen was a
permanet fixture around St. Charles if either of us neede to
use Glen again for more Bond recoveries." (APP.9 at 7).

And further in that declaration he swears:

Glen and I did not socialize with each other, but we had mutual
friends and w.e also occasionally saw each other at Proffessioal
meetings." (APP. 9 at 9 ).

Jackson who plead guilty, went on to state:

" I did not conspire with Glen to murder Mr. Cox." (APP. 9 atll).
Glen did not, give, transller, sell, or loan me a firearm at
any time." ( APP. 9at 12).

There is no incriminative evidence in the record other than the
testimony of Gregory Stump that has been shown to be one lie upon another.
The Prosecutor had nothing to build a case upon, so he paraded forty-one
(41) witnesses before the jury, none of whom, other than Stump, were able
to incriminate Dotson.

Gregory Stump was the Go'wernment1s case, Prosecutor

Hoag told the jury:
"... Folks you've got morethan enough evidence to convict him.
You've got more than evidence just based on Stump's testimony
alone and the phone records that corroborate it.
More." (TR, VI, 71: l-G).
18

But you've got

The statement to the jury is easily debunked, the repeated lies of
key, Government witness Gregory Stump ; the fruitless information he provided
to Agent Heitzley e.g, his misdiection to the Agent that Dotson had gotten
the gun in New Melle, Mo- No mention has been made as to whether or not the
Government made a deal with Stump that he, himself, would not be prosecuted.
If such a promise was made to Stump the Prosecutor had a duty to provide
information under Brady V. Maryland, 373 U.S. 83,83 S. ct 1194. 10 L Ed 2d
215 ( 1963 ); GiglioV. united States, 405 U.S. 150 154, 92 S ct 763, 31L Ed
2d 104 ( 1972 ). Intially, Stump was the subject of the investigation; except
for Stump, the gun would not, however it happened, have found its way to
Virgil Lee Jackson.
We are remined of the Court’s Statement in Napue:
" A lie is a lie, no matter what its subject, and if ti is in
anyway revelant to the case, the District Attorney has the
responsibility and duty to correct what he knows to be false
and elicit the truth...". Napue V. Illinois, 360 U.S. 264,269270, 79 S. ct. 1173, 3 L. Ed 2d 1217 (1959).

Prosecutor Hoag, in his statement to the jury, ante, told the jury
they had Stump's testimony "....and the phone records that corrobrorated it."
(TR, riH, 71: 1-4). The truth is that the phone calls the Prosecutor. speaks of
were not recorded calls, there prove nothing since-Dotson, before he was
aquainted with Stump, returned Stump's call regarding work for Stump, thereafter,
Stump worked with Dotson as a Bounty Hunter. Obviously, there must have been
an exchange of calls that took place after that initial one. Plain numbers
do not relate what was said in the course of such calls.

The phone records, like the parade of witnesses, thirty-nine( 39)
o them, none of whom offered incriminating evidencethat Dotson conspired with
19

Vlfgil Lee Jackson to kill Gerald Cox, are part of a deception on the part
of the Government to win a case without real evidence.

Glen Thomas Dotson is innocent 5 he is a victom of the key Government
witness who used Dotson as a scape goat to avoid criminal scruntiny himself.

In the absence of evidence, the Government leaned upon the fact
that Dotson made himself available for work was distorted to create the imppression
that there was some extraordinary relationship between Jackson and Dotson That
would explain (Ifalsely) the reason Dotson did not hestitate to find a gun
for Jackson. It does not explain why Dotson, seeking an untraceable gun, would
ask Stump

a stranger to Dotson except for ten recovery ventures, if he had

an untraceable, throw-away gun he , Stump, wished to sell. That defies common
sence- The smoke and mirrors routine is quickly wiped away by plugging Gregory
Stump s name into the situations, it was Dotson who became Stump's victim.
In the plea agreement between Virgil Lee Jackson and the Government, according
to Jackson, he agreed not to testify for or against Dotson.

Glen Thomas Dotson is an innocent man who has unsuccessfully sought
an opportunity to heard on these issues, but, largely due to the fact that
he is pauperis and, therefore, must rely upon jailhouse lawyers who like
Dotson, have no education in law or jurispurdence.

" Under the general principles laid down by this court in mooney
V. Holohan, 294 U.S. 103, 79 L. Ed 799, 55 S.ct 340, 98 ALR
406 And Pyle V. Kansas, 317 U.S. 213, 37 L.Ed 214, 63 S.ct.177
Petitioner was not accorded due process of law." ALORTA V. Texas
355, U.S. 28, 31 L.E.d2d 9. 78 S.ct.103 (1957 ).

20

The jury was allowed to believe that Dotson had actually told Stump
I didn't tell them a thing", a statement Prosecutor Hoag argued is
" Consciousness of guilt", ( TR.IV, 126:3-5); but just as violative of Due
Process under the fifth amendment was the Prosecutor's affirmation to the
Judge that he personally knew Dotson did testify before th grand jury,
"...But I know he did testify." (TR. IV, 127:12-15).

" After all

a trial is a search for the truth, not merely a

battle of wits between jousting Attorney's " Rodriguez V.
Doral Mortgage Corp.,57F. 3d 1168, 1178 (1st cir. 1995).

"A trial ideally is a search for the truth •

c s

" , Potuondo V. Agard

529 U.S. 61, 77, 120 S.ct 1119, 146 L.Ed 2d 47 (2000).

The Dotson trial was far from that; lies flourishing in the trial.
The question of the key-Government witness lying to the jury, and the Prosector
supporting him with another lie to avoid a mistrial is a distinct denial
of Due Process of Law.

The Supreme court has repeatedly said that the Government must be
accountable to the judiciary for the loss of liberty of an imprisoned
imprisoned indidual. The court has never retreated from that position.
That proposition was carved into the Constitution by it's framer's in
Article 1, §^9, Cl 2. Dotson has reached out for Judicial relief despite the
the fact that he must rely on others who, like himself, have no formal
training or expertise in the Law or Judisprudence, Dotson now brings his
innocence and his denial of Due Process to this court in one last effort
to be heard.

21

Its root principle is that in a civilized society. Government
must alwys be accountable to the judiciary for a man s
imprisonment: if the imprisnment cannot be shown to confirm
with the fundamental requirements of Law, the individual is
entitle to his immediate release."Fay V. Noia, 372 U.S. 391
402, 83 S.ct. 822, 9 L.Ed 2d 837 (1963)).

Glen thomas Dotson is an innocent man who is simply seeking Justice.
He,therfore, respectfully asks that the Court Grant a writ of Cerriori-

Glen Thomas Dotson

Date:
Glen Thomas Dotson
33121-044
Medical Center for Federal Prisoners
P.0. Box 40000
Springfield , Mo. 65801-40000

'22

